HHS/OIG - Audit,"Audit of Inpatient Bad Debts Claimed by Memorial Hermann Hospital in its Medicare Cost Report for the Fiscal Year Ended June 30, 2000," (A-06-02-00027)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Inpatient Bad Debts Claimed by Memorial Hermann Hospital in
its Medicare Cost Report for the Fiscal Year Ended June 30, 2000," (A-06-02-00027)
October 8, 2002
Complete
Text of Report is available in PDF format (2.12 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Medicare inpatient bad
debts claimed by Memorial Hermann Hospital (hospital) in its Medicare cost report
for the fiscal year ended June 30, 2000 (FY 2000), totaling $1,490,159, met
program reimbursement requirements.  The hospital claimed bad debts that
did not meet Medicare reimbursement requirements for 93 of 140 (66 percent)
bad debt claims tested.  The hospital generally disagreed with our findings
and recommendations.  The hospital did not contest our treatment of 19
or 93 claims that were questioned.